<html>
<title> - REVIEW OF MERCURY POLLUTION'S IMPACTS TO PUBLIC HEALTH AND THE ENVIRONMENT</title>
<body><pre>[Senate Hearing 112-966]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-966

                 REVIEW OF MERCURY POLLUTION'S IMPACTS 
                  TO PUBLIC HEALTH AND THE ENVIRONMENT

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


         Available via the World Wide Web: http://www.fdsys.gov
               
               
               
                               __________
                                           

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-417PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7a6d725d7e686e697578716d337e727033">[email&#160;protected]</a>                
               
               
               
               
               
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 17, 2012
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     7
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    12
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    13

                               WITNESSES

Paulson, Jerome A., M.D., FAAP, Chair, Council on Environmental 
  Health, American Academy of Pediatrics.........................    16
    Prepared statement...........................................    18
Archambo, Brenda, President, Sturgeon for Tomorrow, and Michigan 
  Outreach Consultant, National Wildlife Federation..............    26
    Prepared statement...........................................    28
Dudley, Susan, Director, George Washington University Regulatory 
  Studies Center, and Research Professor, Trachtenberg School of 
  Public Policy and Public Administration, George Washington 
  University.....................................................    30
    Prepared statement...........................................    32
Holmstead, Jeffrey R., Partner, Bracewell & Giuliani LLP.........    39
    Prepared statement...........................................    41
Driscoll, Charles T., Ph.D., Professor, Department of Civil and 
  Environmental Engineering, Syracuse University.................    51
    Prepared statement...........................................    53

                          ADDITIONAL MATERIAL

NRDC Acknowledges Spikes in Energy Costs for Consumers Thanks to 
  Obama EPA Regulations..........................................    93

 
    REVIEW OF MERCURY POLLUTION'S IMPACTS TO PUBLIC HEALTH AND THE 
                              ENVIRONMENT

                              ----------                              


                        TUESDAY, APRIL 17, 2012

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Subcommittee) presiding.
    Present: Senators Carper, Barrasso, Lautenberg, Merkley, 
Inhofe, Sessions, and Alexander.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. We will come to order, please.
    I appreciate the effort of all of our witnesses to be with 
us this morning.
    It is good to see each of you, my colleagues.
    Today's Subcommittee hearing is focused, as we know, on 
mercury pollution and its impact on public health and on the 
environment. The colleagues will have 5 minutes for their 
opening statement, and I will then recognize our panel of 
witnesses. Each witness will have 5 minutes for their opening 
statement. Following the panel's statements, each Senator will 
have 5 minutes for questions. We may have a second round of 
questions if we have time.
    At 11 o'clock this morning there is going to be a vote, and 
the vote will be on whether to proceed to take up postal reform 
legislation, something that a few of us on this Committee have 
worked on long and hard. And so, we have got two things coming 
together at once and somehow we will figure out how to get it 
all done.
    Let me just say that I believe that is possible to have a 
clean environment and a strong economy. When I ran for Governor 
in Delaware in 1992, believe it or not the question I received 
most often was what is it going to be--are we going to 
recession, people would say, if you are elected Governor, is it 
going to be the economy or the environment, and I, my response, 
I would just say both. We do not have to make that choice; we 
can do both. And subsequently we made great gains in our State 
both in a cleaner environment and in terms of job creation.
    Some industries are being asked to make new clean air 
investments to significantly protect public health. Many are 
again posing what I think is a false choice between boosting 
our economy and improving public health. And again, I say we 
can have both. We must have both.
    Today we are focused on why we need to take an additional 
step to clean up our air. We will hear how our health and the 
health of our children are being threatened by mercury released 
in the air every day. We will hear how reducing mercury 
emissions in this country can impact our health here at home, 
reducing healthcare costs, helping us get better healthcare 
results for less money, really to help us move what I call a 
fee for service to a form of healthcare delivery where we are 
actually working to keep people healthy in the first place.
    We have known for a long time that mercury is a neurotoxin 
that can damage our health, especially our children's health 
and development. In 1990 Congress had enough scientific 
information to list mercury as a hazardous air pollutant in the 
Clean Air Act. Lawmakers at the time, including me, thought 
that this action would ensure that our largest emitters of 
mercury would soon be required to clean up. Unfortunately, it 
has taken 22 years for the EPA to start regulating our largest 
source of mercury in this country.
    Since 1990 our knowledge of where mercury comes from and 
its health and environmental impacts has only grown. We know 
that mercury emitted into the air is deposited into our water, 
and the water, we know that it gets into our food stream 
through our fish and fowl. We know that pregnant women eating 
contaminated fish are most at risk because they can transfer 
unhealthy doses to their unborn children, impacting the 
neurological developments of their babies.
    We know that hundreds of thousands of babies are at risk 
every year from mercury poisoning. And we know that we have 
fish advisories in every State in this country, largely due to 
mercury. We also know that power generation remains the largest 
manmade source of mercury emissions in this country by far.
    We will hear today that actions made here at home do make a 
difference. We will hear that we are only beginning to see the 
true costs of not cleaning up our mercury pollution. Mercury 
pollution is a local, regional, and global problem that must be 
addressed at the Federal level.
    Since coming to the Senate I have worked with my friend 
Lamar Alexander and many of our colleagues to reduce mercury 
pollution from our power plants through legislation. We were 
not the only ones trying to reduce mercury pollution through 
Federal standards. Senator Inhofe, former Senator Voinovich, 
former President George W. Bush's EPA all supported Federal 
regulations for power plant mercury emissions.
    In fact, one of our witnesses here today, Jeff Holmstead--
nice to see you, Jeff--testified before this Committee, I think 
in 2001 as President Bush's new EPA Administrator for Air, on 
this very issue. During that hearing, I believe Mr. Holmstead 
testified in favor of reducing mercury pollution from our power 
plants stating then that mercury emissions are, and I think 
this is a quote, known to have a wide range of adverse effects 
on human health. He likened the health impacts of mercury to 
another deadly neurotoxin, and that is lead.
    Fast forward to today and find that the EPA has acted to 
reduce mercury pollution from utilities. Unfortunately, some of 
my colleagues are still debating the science of mercury 
pollution and whether we need Federal standards to clean up 
this deadly air toxin. I hope today's hearing will put to rest 
this debate.
    The emission of mercury into our air continues to pose a 
threat to the health of Americans, especially to the youngest 
most vulnerable among us. I believe we are making progress. 
Nonetheless, we need to make more of it. And thanks to the 
technological advances that are available to us today, we can 
make more progress and continue to grow our economy at the same 
time.
    Dr. Barrasso.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    I've always believed that it's possible to have a clean 
environment and a strong economy.
    When I ran for Governor in Delaware in 1992, believe it or 
not, the question I received most often was, ``Do you think we 
can have a strong economy and a clean environment?''
    And I said, ``I think it's a false choice to say that we 
have to have one or the other; we can have both.'' For the next 
8 years, we did have both. We made great gains in Delaware in 
both improving our economy and strengthening our natural 
environment.
    As some industries are being asked to make new clean air 
investments to significantly protect public health, many are 
again posing a false choice between boosting our economy and 
improving public health.
    And I say again--we can have both.
    Today we are focusing on why we need to take further steps 
to clean up our air.
    We will hear how our health and the health of our children 
are being threatened by a silent killer released into the air 
every day--mercury.
    We will hear how reducing mercury emissions in this country 
can impact our health here at home; reducing healthcare costs, 
helping us get better healthcare results for less money.
    We've known for a long time that mercury is a neurotoxin 
that can damage our health--especially our children's health 
and development.
    In 1990 Congress had enough scientific information to list 
mercury as a hazardous air pollutant in the Clean Air Act.
    Lawmakers at the time--me included--thought this action 
would ensure our largest emitters of mercury would soon be 
required to clean up.
    Unfortunately, it has taken 22 years for the EPA to start 
regulating our largest sources of mercury in this country.
    Since 1990 our knowledge of where mercury comes from and 
its health and environmental impacts has only grown.
    We know that mercury emitted into the air is deposited into 
our water. In the water, it gets into our food stream through 
our fish and fowl.
    We know that pregnant mothers eating contaminated fish are 
most at risk because they can transfer unhealthy doses to their 
unborn child--impacting neurological development of the baby.
    We know that hundreds of thousands of babies are at risk 
every year for mercury poisoning.
    We know we have mercury fish advisories in every State in 
this country.
    We also know that power generation remains the largest man-
made source of mercury emissions in this country.
    We will hear today that actions made here at home do make a 
difference. We will hear that we are only beginning to see the 
true costs of not cleaning up our mercury pollution.
    Mercury pollution is a local, regional, and global problem 
that must be addressed at the Federal level.
    Again, we've known for a long time that mercury pollution 
is a problem that needs to be addressed.
    Since coming to the Senate I have worked with my friend 
Senator Lamar Alexander and many of my colleagues to reduce 
mercury pollution from our power plants through legislation.
    We weren't the only ones trying to reduce mercury pollution 
through Federal standards. Senator Inhofe, former Senator 
Voinovich, and President George W. Bush's EPA all supported 
Federal regulations for power plant mercury emissions.
    In fact, one of our witnesses here today, Jeff Holmstead, 
testified before this Committee in 2001 as President Bush's EPA 
Administrator for Air on this very issue.
    During that hearing, Mr. Holmstead testified in favor of 
reducing mercury pollution from our power plants--stating then 
that mercury emissions are ``known to have a wide range of 
adverse effects on human health.'' He likened the health 
impacts of mercury to another deadly neurotoxin--lead.
    Fast forward to today, and finally the EPA has acted to 
reduce mercury pollution from utilities.
    Unfortunately, some of my colleagues are still debating the 
science of mercury pollution and whether we need Federal 
standards to clean up this deadly air toxic.
    I hope today's hearing will put to rest this debate.
    Mercury pollution is a real threat and must be reduced in 
this country to safeguard our health, protect our natural 
environment, and preserve clean air for generations to come.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    I want to welcome the witnesses here today. I would 
especially like to welcome former EPA Assistant Administrator 
Mr. Holmstead. Thank you for being here.
    And Ms. Dudley, thank you, a Senior Research, a Research 
Professor of Public Policy and Public Administration as well as 
Director of George Washington University's Regulatory Studies 
Center. Both are experts in regulatory affairs, and I believe 
that their expertise in crafting sound regulations is going to 
benefit us greatly in this hearing.
    I would also like to welcome our other witnesses, Mrs.--I 
am sorry--Ms. Brenda Archambo who is the President of Sturgeon 
for Tomorrow. I have followed your work in advocating on behalf 
of sturgeon, and I am told that you are referred to as the 
Sturgeon General. Congratulations.
    [Laughter.]
    Senator Barrasso. Welcome. I would also like to welcome Dr. 
Driscoll. In addition to his being affiliated with Syracuse 
University, he also has published numerous EPA-funded papers 
and continues to hold a number of positions with the EPA under 
this Administration.
    I would also like to welcome Dr. Paulson, who is the Chair 
of the American Academy of Pediatrics' Council on Environmental 
Health. The Academy has a long history of advocating for 
children's health issues and been a champion on a number of 
issues over the years.
    Many of the witnesses before us today are going to talk 
about the health threats of mercury. No one--no one at this 
hearing, on the dais or the people testifying--no one believes 
that mercury is not a threat if ingested in doses that exceed 
strict limits set by the EPA and other world health 
organizations.
    As they say though, the dose makes the poison. We all want 
to protect children from dire health consequences of mercury 
exposure. The issue is how best to regulate mercury in a way 
that saves the most lives and helps keep our economy strong.
    One of the witnesses today, Ms. Archambo, stated in a 2002 
Sturgeon for Tomorrow newsletter that ``personally, one of the 
greatest lessons I have learned is that there are times we must 
say no to the good to say yes to the best.'' I disagree. I am a 
firm believer that we should never let the perfect be the enemy 
of the good.
    In 2005 the Senate had an opportunity to address mercury 
exposure by reducing mercury emitted by power plants by 70 
percent. It happened in this very Committee. There was a 9 to 9 
vote. Nine Senators voted against the 70 percent mercury 
reduction, which was included in what was called the Clear 
Skies Bill. One of those Senators who voted against the 70 
percent reduction of mercury was a Senator named Barack Obama. 
Voted against in a 9 to 9 tie vote.
    So, I have heard statements from some of my colleagues that 
even if we saved one life because of the EPA's Utility MACT 
rule, it would be worth it. It would be worth it despite its 
$10 billion price tag for what has been listed as only $6 
million in benefits. According to the EPA's own number, $10 
billion price tag, $6 million in benefits.
    My question is, how many people could have been saved 
between 2005 to today had that 70 percent reduction in mercury 
passed this Committee and had been then signed by the President 
into law?
    I know the bill was not perfect. I was not in office at the 
time, but perhaps those nine Senators, both Republicans and 
Democrats, including then Senator Barack Obama, let the perfect 
be the enemy of the good.
    Well, I will reiterate that we can save a lot of lives with 
$10 billion. We can and should do better than the EPA's current 
Utility MACT rule. I hope that the witnesses before us today--
especially the ones who are experts in regulating things as 
opposed to just stating the known fact that mercury can be a 
health threat--can shed some light on the best ways to reduce 
mercury pollution, reduce it in a way that protects the public 
health as well as protects the economy.
    The jobs that will be lost from the EPA's Utility MACT rule 
and the slew of other EPA rules targeting coal-fired power 
plants will lead to serious health impacts to the public. When 
Americans lose their jobs their health and the health of their 
children suffer. Those are the findings of a new report, a 
minority report that was filed in this Committee, Red Tape 
Making Americans Sick, a Report on the Health Impacts of High 
Unemployment. Just as we must look at the cumulative impact of 
mercury accumulation in fish, we must also look at the 
cumulative impact of unemployment on public health.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Senator Carper. Thank you, Dr. Barrasso.
    Senator Lautenberg, you are next. And then I think Senator 
Inhofe.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Yes. Thanks, Mr. Chairman, for 
convening this hearing, because as our colleague Dr. Barrasso 
said, every one of us is clearly looking at their children and 
grandchildren and saying what do I have to do to protect them? 
What is it worth to save 300,000 a year from being afflicted by 
mercury and having their IQ reduced, their ability to function 
limited? There is no price too high to pay for that, in my 
view.
    I know this. I was in the Army, and so were other veterans 
here. And we paid plenty of money. We brought out the forces. 
We wanted to protect ourselves from a nuclear threat, from bomb 
threats from terrorists, all of those things. Why did we do it? 
We did it to protect our families and our well-being. And that 
is what this is about. The same thing. It is critical for these 
children, for their well-being, to fully understand lessons in 
school, get good marks, and compete in the classroom.
    There is little doubt--and we heard it--that mercury is one 
of the most toxic pollutants that we face. It is a poison that 
attacks the brain. I do not think that you see that. It is not 
like the wound from the outside, in their nervous system, you 
do not see that, but the effects are definitely there.
    Young children and developing fetuses are especially 
vulnerable to mercury poisoning. Pregnant women who are exposed 
to high levels of mercury can give birth to babies who suffer 
from brain damage, learning disabilities, hearing loss. 
According to the EPA, more than 300,000 babies a year are born 
with mercury levels high enough to cause developmental problems 
and learning disability--300,000 a year. What is that doing to 
future populations in America?
    The bottom line is this. We should not allow the poisoning 
of our children to continue. And that is why I applaud the EPA 
for setting new pollution standards for mercury and other toxic 
air pollutants.
    For the first time in history power plants across the 
country will be required to cut mercury pollution by as much as 
90 percent. EPA has also set important standards that will 
prevent 15,000 pounds of mercury pollution coming from 
industrial boilers every year. In the fight for public health 
and cleaner air, this is a major victory, one of the biggest 
gains in a generation. These standards have been in the making 
since 1990 when both Democrats and Republicans came together to 
pass the Clean Air Act amendments that require the EPA to set 
strict limits on pollution.
    But now the polluters and their friends, friends in the 
Congress, are stalling, claiming it is going to cost business 
too much, too much money to comply, cost jobs. A lot of this is 
really doubtable. There is nonsense. EPA standards simply 
ensure that all companies use the maximum available controlled 
technology.
    The cleanest plants in our country have already 
demonstrated that they can succeed by investing in clean 
technology. For those who disagree, I say come to New Jersey 
and look at its largest public electric utility, Public Service 
Electric & Gas. They cut the emissions of mercury and acid 
gases by 90 percent. At the same time, the company created more 
than 1,600 jobs, maintained steady rates, and kept the lights 
on. PSE&G proves that solutions are available and that the 
problem is too big to ignore.
    Every State in the country has issued advisories against 
eating fish from lakes and streams because of high levels of 
mercury contamination. And pregnant women are advised to limit 
their consumption of fish due to mercury contamination, despite 
the multiple health benefits of eating fish.
    We have the technology to cut mercury pollution from coal-
fired power plants and industrial boilers. But now we have got 
to put this technology to work to protect pregnant women and 
ensure the healthy brain development of our children.
    My colleagues need to make a choice. You can either stand 
up, protect Americans from toxic poisons, or you can fall for 
more excuses from polluters. Job loss is terrible. But life 
loss is even worse. I choose to continue fighting for the 
health of our families.
    Mr. Chairman, I look forward to hearing from our witnesses 
about how we can work together to ensure that all Americans 
have clean air to breathe and are protected from toxic mercury 
pollution.
    Thank you.
    Senator Carper. Thank you, Senator Lautenberg.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I am glad we are having this hearing. I just wish we had 
the hearing before the rule went final. This is going to go 
down as the most costly rule in the history of the EPA. And 
there is a lot of competition for that title. And so we have to 
look at this and say, what can we really do about mercury? 
Because this does not do it.
    And I want to tell Senator Alexander, who has been 
concerned about mercury for about as long as anyone I know, 
that if we can address this properly, and if we can, maybe the 
Attorneys General will be successful in striking this down, 
that we can then get busy and do something to really address 
mercury.
    I can remember, and so can the Chair remember, back when 
Republicans were the majority we had the Clear Skies Act, and 
that was the largest reduction of pollutants in the history of 
this country. It was held hostage because it did not include 
greenhouse gases. So, what they are saying is, we do not care 
about doing away with pollution unless we get our program in 
there. And that is what happened.
    So, I think if you look at the background, the history of 
this, Republicans have made really great efforts. That was 
2005. I remember the arguments. I remember the hearings that we 
had here. But I do not think this rule is about reducing 
energy. I think it is a part of the Obama attack on affordable 
energy in the United States, to kill coal, put us in a 
situation where it is going to be a real economic disaster.
    And by the way I say to one of our witnesses, Ms. Dudley, 
that I am going to kind of pursue this with you during the 
question and answer time because you have a background 
certainly that lends itself to the economics of this thing, and 
we are doing something that most people are not aware of. When 
I say the most costly rule in the history of the EPA, some 
might say well maybe the next program. Well, that is a 
standard. That is not a rule. This is a rule, the most costly 
rule, Mr. Holmstead, in the history of the EPA.
    So, I think we need to pursue that. To think, and it was 
said by the Ranking Member of the Subcommittee, that $10 
billion is the cost but only $6 million goes toward doing 
something about mercury. I mean, that is shameful that we would 
even be doing it this way.
    If we want to do something about mercury, and let me give 
the assurance, if we are able to do something with my CRA, 
Congressional Review Act, I think we all know how that works, 
that means you have to have 30 co-sponsors and then you can 
override this type of a rule that comes from unelected 
bureaucrats primarily. So, hopefully that will be successful. 
We already have the 30, by the way, so we are well on our way 
to doing something about this, and I hope the CRA will be.
    So, we have all of these Attorneys General out there, 24 of 
them. I know there are more because my State of Oklahoma is not 
among the 24, and they are going to be, they are going to be in 
there. So, there are a lot more that are looking at this and 
thinking that this is really the coal benefit effort here, the 
2.5 particulate matter reductions are being used in such a way 
as to make it look like this is a very real attack on mercury, 
which it is not.
    It is not about public health. If it were, the EPA would 
not have to trick the public into relying on phony coal 
benefits. If it were, the EPA would have shown more rigor in 
analyzing the jobs that will be lost across the country and the 
health impacts that joblessness has. No, this is not; this rule 
is about killing coal in the furtherance of Obama's illogical 
cap-and-trade agenda.
    Lisa Jackson told us as much. I have always been very fond 
of the Director of the EPA, Ms. Jackson. She said it is about 
leveling the playing field between power providers, which will 
make electricity more expensive which, incidentally, is one of 
the promises that President Obama made back when he was running 
for office. It is going to be expensive, very expensive, and 
this is one step in that direction to increase the costs of 
electricity.
    And of course right now with all the efforts that are 
taking place, next month we will see another effect on these 
closures as PJM holds it future capacity auctions, increasing 
electricity rates. UBS estimates that prices could increase by 
60 percent in Ohio. Elsewhere in the country, Midwest 
Independent Transmission System operators estimate that 
electricity rates could increase by as much as 50 percent. That 
is nationwide. These effects were known as the rule was 
developed, but the EPA chose to ignore them.
    So, we are going to pursue this. When the American people 
realize those of us who really want to do something about 
mercury find that we are paying $10 billion of which $6 
million--$10 billion, $6 million--I think that is 1,600 to 1 on 
PM as opposed to doing something about mercury.
    So, during your opening statement, and you be thinking 
about this, Ms. Dudley, because once this message gets out, it 
is a real message that people will respond to.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I want to thank our witnesses for joining us for today's 
hearing. Additionally, Chairman Carper, thank you for holding 
this second hearing focused on the Utility MACT, or MATS, rule. 
Utility MACT is the most costly rule in the history of the 
EPA--one that typifies President Obama's war on affordable 
energy. It is fitting we would focus additional oversight 
efforts on this rule. I only wish we had done so before the 
rule went final and the negative impacts started to be felt.
    Let me begin today with some news today. As of yesterday, 
24 State attorneys general, including one-quarter of all 
Democratic State attorneys general, had filed petitions 
challenging Utility MACT. This includes some States that should 
catch everyone's attention: Arkansas, Kentucky, Missouri, 
Mississippi, West Virginia, and Wyoming. It is clear that there 
is tremendous bipartisan concern from the States about EPA's 
regulatory onslaught.
    To be clear, Republicans are for reducing mercury 
emissions. In fact, my Clear Skies Act was the first bill that 
reduced mercury from coal-fired power plants. Unfortunately, 
Clear Skies was killed by radicals in the environmental 
movement because it didn't embrace their global warming agenda. 
Those opponents included President Obama, who was a member of 
this Committee at the time. Undeterred by that defeat, in 2005 
the Bush administration sought to issue mercury regulations 
under the Clean Air Act. But that rule also fell victim to 
environmental groups' court challenges.
    So today we would do well to remember that it is 
Republicans who first sought to reduce mercury, and it's the 
environmental establishment that has stopped progress for more 
than a decade.
    But this rule isn't about reducing mercury. It's part of 
President Obama's grand strategy to end affordable energy in 
the United States and kill coal. Like Obama's cap and trade 
regulations, Utility MACT is not interested in environmental 
protection or promoting human health. Backed by false claims 
and EPA propaganda, this rule will fulfill Obama's campaign 
promises of skyrocketing electricity rates and bankrupt the 
coal industry.
    EPA calls this the ``Mercury and Air Toxics'' rule, but the 
Agency admits the benefits of reducing mercury are 
astonishingly small--especially when considering the rule's 
price tag, roughly $10 billion annually. EPA estimates the 
benefits of reducing mercury to be $6 million or less. That's a 
cost-benefit ratio of approximately 1,600 to 1. You can see the 
gulf between benefits and costs in this chart, which I request 
be entered into the record.
    This rule cannot be justified on the merits. But instead of 
working to reduce the rule's cost, EPA conjures up additional 
benefits to fool the public into thinking they are getting a 
good deal. EPA does this by tallying up the ``co-benefit'' of 
additional PM<INF>2.5</INF> reductions.
    In so doing, EPA is conveniently forgetting that it already 
has in place more cost effective Clean Air Act mechanisms to 
reduce PM<INF>2.5</INF>. Worse still, the Agency is claiming 
benefits from reducing PM<INF>2.5</INF> to levels below the 
National Ambient Air Quality Standard (NAAQS)--even though this 
air is, by definition, clean.
    This rule isn't about public health. If it were, EPA 
wouldn't have to trick the public by relying on phony ``co-
benefits.'' If it were, EPA would have shown more rigor in 
analyzing the jobs that will be lost across the country and the 
health impacts that joblessness has. No, this rule is about 
killing coal in furtherance of Obama's ideological cap and 
trade agenda. In fact, this was confirmed by Lisa Jackson--this 
rule is about ``leveling the playing field'' between power 
providers--which will make electricity more expensive for 
everyone.
    And now American families have to pay the cost--real costs, 
compared to EPA's phony benefits. At our last hearing we heard 
about the closure of a GenOn plant in Avon Lake, directly 
attributable to EPA actions. The loss of tax revenue from this 
will hurt schoolchildren's education and reduce emergency 
services in the community. This is a story that will be 
repeated in community after community. As of today, nearly 22 
gigawatts operating in 20 States are slated to shut down due to 
EPA.
    Next month we will see another effect of all these closures 
as PJM holds its Future Capacity Auctions--increasing 
electricity rates. UBS estimates that prices could increase by 
60 percent in Ohio. Elsewhere in the country, MISO (Midwest 
Independent Transmission System Operators) estimates that 
electricity rates could increase by as much as 50 percent. Last 
fall this rule was estimated to increase electricity prices by 
as much as 20 percent and cost the economy 1.64 million jobs. 
These effects were known as the rule was developed, but EPA 
chose to ignore the warnings.
    This regulation needs to be stopped. My resolution of 
disapproval on Utility MACT will send EPA back to the drawing 
board, where they can consider the full range of their rule's 
impact. Contrary to claims, a CRA doesn't amend the Clean Air 
Act or keep the agency from regulating mercury. Rather, it 
would result in EPA writing mercury regulation in a manner 
consistent with congressional direction--namely, in a way that 
reduces mercury but that doesn't unduly harm Americans or 
eliminate their jobs.

    [The referenced material follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you, Senator Inhofe.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman.
    Here is my view. My view is that there is no excuse, given 
technological advances, for operating coal plants that do not 
have advanced pollution control equipment on SO<INF>x</INF>, 
NO<INF>x</INF>, and mercury. Every year since I have been a 
Senator I have introduced, with Senator Carper, legislation to 
do that. And the industry wanted to delay, and the 
environmentalists wanted standards that were too strict, and so 
Congress has ceded its authority to the EPA, which I do not 
like.
    If the Carper-Alexander had passed in 2010, industry would 
have had 5 years to deal with a 90 percent mercury standards, 
and you know we would be half-way there if we had done that. 
And with a law, we would have many fewer, many fewer lawsuits 
to try to stop it.
    I think another thing to say is that Congress told the EPA 
in 1990 to regulate mercury and a number of other harmful 
pollutants. And then the Courts told the EPA in 2008 to 
regulate mercury and a number of other pollutants. I do not 
think we--Dr. Barrasso said that none of us like mercury. We 
all understand it is a particular nasty element, and if we have 
advanced technology that can get rid of 90 percent of it in 
coal-fired power plants, we ought to do that. And ought to do 
it as quickly as is reasonably possible.
    If I were king today, I would do it in 6 years, and I think 
the best way to address it would be for Congress to stop ceding 
its responsibility to EPA and to pass a law adopting this same 
rule and giving the utilities 6 years to do it. I think we 
would probably get the environmental benefits more rapidly 
because of lack of lawsuits if we did that.
    Now, as to the costs, for a moment. I have great respect 
for Senator Inhofe, and he is correct. The EPA does say that 
about $10 billion is the cost of this. But they also say that 
the cost of the whole rule is $37 billion to $90 billion in 
benefits. And it is true that mercury is not the only part of 
this rule. There are a number of other pollutants, but they are 
all harmful pollutants, they are acid gases, and hydrochloric 
acid and particular matter, or soot, which is a very dangerous 
element in the air which makes a lot of people sick.
    Now, how much will it cost, and will it kill coal? I do not 
think that will happen. I mean, the EPA also says its estimate 
is that it will add 3 percent to the cost of the electric bill, 
this rule. That is about $3 a month in most, at least in our 
State.
    The Tennessee Valley Authority, the largest Federal 
utility, has announced that it is going to close some of its 
oldest and dirtiest coal plants, especially because of the low 
cost of natural gas today, but that it is going to keep open 38 
of them, and by 10 years from now have all of the pollution 
control equipment on that it needs to have for SO<INF>x</INF>, 
NO<INF>x</INF>, and mercury. That will mean TVA will be 
producing about one-third of its electricity from nuclear, 
about one-third from coal, and about one-third from natural 
gas. I want us to continue to use coal. I think coal's future 
is brighter if we require coal to get rid of SO<INF>x</INF>, 
NO<INF>x</INF>, and Mercury. I do not think the EPA ought to be 
telling us what to do about greenhouse gases because we do not 
have the technology to do that yet in a commercial way. But we 
do have in SO<INF>x</INF>, NO<INF>x</INF>, and mercury.
    The Southern Company, the largest private utility, it told 
its investors about 3 or 4 weeks ago that it could do, it could 
comply with this rule in the 4 years that the rule allows, and 
it could do it at less of a cost than it first thought. And if 
4 years is not long enough, the President is even allowed to, 
by Executive Order, grant 2 more years.
    So, it is hard for me to see how we can object to this is 
the law requires it, if the court said do it, and if we have 
the advanced technology to do it.
    Senator Carper. Thanks very much, Senator Alexander.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    Mercury is a concern to me. It is something I have spent 
some time looking at. Around 8 years ago I requested the 
formation of an interagency working group on methylmercury for 
the Gulf of Mexico. There were a number of articles in the 
Mobile Press Register that dealt with the amount of mercury in 
the Gulf, the amount in fish, the potential threats, and I 
noted the importance of using honest science in dealing with 
the issues.
    In June 2004 the Bush administration's National Science and 
Technology Council issued a methylmercury in the Gulf of Mexico 
report. So, I thought it was a good report, a valuable report, 
and I think it is important that we look at it because I was 
concerned about this fear that we had concerning mercury, and 
it certainly struck me as being potentially very dangerous.
    But it is a false choice to say that we must have President 
Obama's Power Plant Mercury Rule or no rule at all. Power plan 
mercury emissions have already been reduced by 50 percent since 
1990, and more progress is being made. In Alabama mercury 
emissions were reduced 27 percent from 2000 to 2010 during that 
10-year period.
    In 2005 the Bush administration took steps to reduce 
mercury emissions in our country by 70 percent. Were you there 
then, I guess you were, were you not, Administrator Holmstead? 
That would have protected human life. It reduced the emissions 
by about 70 percent through a market-based system and without 
increasing significantly energy costs. What a substantial 
progress that would have been.
    But a court rejected certain of the trading provisions of 
the mercury rule and instead of correcting those errors and 
problems in an appropriate manner, the Obama administration has 
taken just about the most costly approach possible. And that is 
a concern to me.
    Candidate Obama stated in 2008, ``if someone wants to build 
a new coal-fired plant they can, but it will bankrupt them 
because they will be charged a huge sum for all the greenhouse 
gases that is being emitted.'' I think there is a hostility to 
coal, and they are using various tools and weapons to go at 
this source of the largest amount of our electricity in the 
country. It just is.
    So, this rule would substantially increase electricity 
rates. We are having a rebound, to some degree, in 
manufacturing in America, I believe because of low prices of 
natural gas. I do not know how long that will continue, but it 
has been a blessing to us. Nothing has been more beneficial to 
manufacturing increase.
    But EPA admits this will increase electricity rates by 3 
percent; other data shows it could be 10 to 20 percent 
increases in electricity. That has a very significant impact on 
this economy and jobs. Anybody that denies that and makes light 
of a 10--3, 5, 10 percent increase in electric rates is really 
living in the wrong world. We live in a real world where people 
need work, and we need to be competitive in the world 
marketplace.
    And I am concerned about EPA's statistics. I will ask the 
witnesses a question or two. But what really happened--Ben 
Raines, writing in the Mobile Press Register a series of 
articles, really, really well written, his father is Howell 
Raines, former editor of the New York Times and an Alabamian, 
and he wrote about this very, very carefully, and I studied it. 
But the key event was when the CDC lowered significantly the 
amount of mercury that could be in a body in a healthy fashion. 
And it was very much disputed. But when that amount went down, 
then it justified the move for major rule change emissions. And 
then the Bush administration responded and met that challenge.
    I would just note that last year the Wall Street Journal 
noted that with regard to mercury, power plants emit 41 to 48 
tons of mercury per year in the United States. But U.S. forest 
fires--you have them in Wyoming, we have them sometimes--emit 
44 tons a year, cremation of human remains discharges 26, 
Chinese power plants eject 400 tons, volcanoes, sub-sea events, 
geysers, and other sources spew out 9,000 to 10,000 tons per 
year, according to the Wall Street Journal.
    So, I guess I am just saying let us get this right. Let us 
make our environment safer. Let us continue this substantial 
reduction in the amount of mercury emissions, but let us do it 
in a way that does not unnecessarily damage job creation and 
family wealth and health in America.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you very, very much, all of you, for 
your statements.
    Before I introduce our witnesses, I just want to go back to 
something that Senator Alexander said. He mentioned that 
Southern, apparently in information that they provided to some 
of their investors, indicated that they would be able to comply 
with an environmental safeguard earlier, I think last month, 
and at about one-third less price than was originally 
estimated.
    To go back about 20 years, when we were still trying to get 
serious about acid rain and trying to decide how to go about 
reducing the incidence of acid rain in our country, there were 
different approaches that were proposed, and the one that 
ultimately the George Herbert Walker Bush administration chose 
to embrace and to implement was really a cap-and-trade system 
involving reducing sulfur dioxide emissions. And it turned out 
that by using that approach they reduced the cost by four-
fifths--reduced the costs by four-fifths of what was estimated, 
and they actually achieved the result that was hoped for in 
one-half the time.
    And most recently, I think in the last month when we were 
in a hearing here in this room with respect to air toxins, we 
learned that AP, a big utility in the Midwest, had indicated 
that they were going to be able to comply with reductions that 
were sought at about one-half the costs that they had 
originally estimated.
    I think those are good things to keep in mind as we go 
forth.
    I want Senator Merkley to share his words of wisdom as 
well, and then we will turn to our witnesses.
    Senator Merkley, thank you.
    Senator Merkley. Thank you, Mr. Chairman.
    I am really looking forward to the wisdom of our experts. 
So, I will pass, and let us get to it.
    Senator Carper. You are a good man. Thank you.
    All right. With that, let us welcome our witnesses.
    First, our lead off hitter today is Dr. Jerome Paulson.
    Dr. Paulson, it is nice to see you.
    He is Chair of the American Academy of Pediatrics' Council 
on Environmental Health.
    Next, Brenda, I want to make sure I get your name right, 
Archambo. Is it Archambo?
    Ms. Archambo. Archambo.
    Senator Carper. Archambo. Ms. Archambo is referred to 
proudly by her constituents and by our Ranking Member here as 
the Sturgeon General of Sturgeon for Tomorrow.
    You know, Dr. Barrasso is a surgeon, and when I first read 
your bio I thought there was a typo here. I think we have a lot 
of doctors before us, and I thought, well, maybe you are a 
surgeon, maybe the Surgeon General of Michigan or something, 
but the Sturgeon General looks even better.
    Next we have Ms. Susan Dudley, Research Professor of Public 
Policy and Public Administration and Director of the George 
Washington Regulatory Studies Center.
    Welcome, nice to see you.
    Jeff Holmstead, welcome back. We follow you from afar and 
what you are up to, and we are always happy to see you. And I 
understand that you are now a partner at the law firm of 
Bracewell & Giuliani. That is great.
    And finally, Dr. Charles Driscoll. Dr. Driscoll is a 
Professor at the Department of Civil and Environmental 
Engineering at Syracuse University.
    Again, we ask you to try to hold your statements to about 5 
minutes each. The full content of your written statements will 
be included in the record.
    Please proceed, Dr. Paulson.
    Thank you.

 STATEMENT OF JEROME A. PAULSON, M.D., FAAP, CHAIR, COUNCIL ON 
      ENVIRONMENTAL HEALTH, AMERICAN ACADEMY OF PEDIATRICS

    Dr. Paulson. Good morning.
    Thank you, Chairman Carper and Ranking Member Dr. Barrasso, 
for the opportunity to testify today regarding the child health 
impacts of mercury pollution. As introduced, I am Dr. Jerome 
Paulson, and I am proud to represent the American Academy of 
Pediatrics.
    It has been more than 20 years since a bipartisan Congress 
passed the Clean Air Act Amendments of 1990 which mandated that 
the EPA reduce mercury and other toxic emissions from the 
Nation's power plants. Since this law was enacted, we have 
learned much about the impact of mercury on children's health. 
Therefore, the American Academy of Pediatrics was tremendously 
pleased that the EPA has finally taken steps to reduce mercury 
pollution from coal- and oil-fueled power plants in the Mercury 
and Air Toxic Standards, or MATS, regulations released in 
December of last year.
    This new rule will lead to cleaner air and better health 
for infants, children, families, and communities across the 
U.S. All aspects of the environment have especially profound 
effects on children's health. A given dose of pollutant will 
have a greater impact on a child than on an adult, not only due 
to their smaller size but because of the nature of their 
growing bodies and minds.
    At sensitive points in child development, environmental 
exposures can have especially harmful effects. Methylmercury, 
in particular, is toxic to the developing brain of the fetus 
and young child. The damage it causes to an individual's health 
and development is permanent and irreversible.
    Although a person can be exposed to mercury through 
breathing contaminated air or through skin contact, the most 
common route of exposure to methylmercury over age 1 is eating 
contaminated food, especially large fish. Pregnant women who 
consume contaminated fish transmit methylmercury to their 
developing fetuses, and infants can ingest methylmercury in 
breast milk.
    Methylmercury causes localized death of nerve cells and 
destruction of other cells in the developing brain of an infant 
or fetus. It interferes with the movement of brain cells and 
the eventual organization of the brain. In utero exposure to 
low levels of mercury has been associated with subtle effects 
on memory, attention, and language.
    Methylmercury can also damage, in adults, the kidneys, 
liver, brain, and nervous system. A recent study found that 
methylmercury exposure may even lessen the cardiovascular 
benefits associated with regular fish consumption among adults.
    I think it is very important for everybody in this room to 
recognize that there is no safe level of mercury exposure or a 
blood mercury concentration below which adverse effects are not 
seen. Studies have consistently proven that reducing 
methylmercury improves public health outcomes and is essential 
to optimum child health.
    The American Academy of Pediatrics recommends in the 
strongest terms possible that the Clean Air Act should not be 
weakened in any way that decreases the protection of children's 
health and that this MATS regulation not be changed or weakened 
in any way.
    In contrast to the cost of controlling pollution, which are 
one time or short-term expenditures, the cost to treat a child 
with a developmental disability resulting from methylmercury 
exposure reoccur every year of that child's life and in each 
birth cohort until mercury emissions are reduced.
    If we fail to protect children against mercury pollution, 
we accept the cost of living with and treating preventable 
birth defects, chronic diseases, and disability among our 
Nation's infants and children. If we fail to protect children 
against mercury pollution, we accept the cost of permanently 
diminished health and productivity loss across the life span.
    In conclusion, the American Academy of Pediatrics commends 
you, Chairman Carper and Ranking Member Dr. Barrasso, for 
holding this hearing today. I appreciate the opportunity to 
testify and will be happy to answer any questions.
    [The prepared statement of Dr. Paulson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Dr. Paulson, thank you so much.
    When we have, like, the Postmaster General before us or the 
Attorney General or the Surgeon General, we always call them 
General. And so, General Archambo, please proceed.
    [Laughter.]

STATEMENT OF BRENDA ARCHAMBO, PRESIDENT, STURGEON FOR TOMORROW, 
 AND MICHIGAN OUTREACH CONSULTANT, NATIONAL WILDLIFE FEDERATION

    Ms. Archambo. Good morning, Chairman Carper, Ranking Member 
Barrasso, and other members of the Subcommittee. Thank you for 
the opportunity to speak today on behalf of Michigan's 
sportsmen and women, representing the great old State of 
Michigan.
    My name is Brenda Archambo, also known as the Sturgeon 
General. It is not just work. It is a little bit of fun, too. I 
also am the Chair of our county economic development 
corporation, and I do outreach consulting with the National 
Wildlife Federation.
    I am a fourth generation ice angler. I live on Black Lake 
in Cheboygan, Michigan. That is in northern Michigan. Black 
Lake is eighth largest inland lake in Michigan and is world 
renowned for its lake sturgeon population and the recovery 
efforts being conducted at Black Lake.
    Michigan's wildlife and natural resources are the backbone 
of our $5 billion annual recreational tourism economy, and the 
Great Lakes are, indeed, a national treasure. Our State's 
history and cultural identity are inseparably linked to our 
wildlife and natural resources, and that is what makes us Pure 
Michigan.
    Across America hunters and anglers have contributed more 
than $10 billion to fish and wildlife conservation and in a 
typical year pump $75 billion into the economy. In Michigan 
there are 1.7 million hunters and anglers who spend $3.3 
billion a year. That supports 46,000 jobs.
    Sportsmen and women are particularly concerned about 
mercury. This harmful air toxic settles from the air into our 
rivers, lakes, and forests, polluting the environment and 
accumulating up the food chain as fish and wildlife consume the 
contamination. This directly affects many species that are 
revered as our State's conservation heritage.
    Few experiences in life are more precious than witnessing a 
child who reels in their first fish and then proudly brings it 
home for dinner. How do we explain to them that they cannot 
safely eat the fish that they catch? We should be able to eat 
safe fish without being worried about mercury in our 
bloodstream.
    There are 204 fish consumption advisories in the State of 
Michigan. There are over 600 if you add in the other 
pollutants. Two hundred and four. So, all 50 States have some 
type of mercury fish consumption advisories.
    But for over 40 years the Clean Air Act has made progress 
in reducing the threats posed by pollution. History has shown 
that we can clean up pollution, create jobs, and grow our 
economy all at the same time.
    It is misleading to say that the enforcement of our 
Nation's environmental laws is bad for the economy and the 
unemployment. It is not. We should never have to choose between 
a clean environment and a job. We are entitled to both. 
Americans are no less entitled to a safe, clean environment 
during difficult economic times than in a more prosperous 
economy.
    Reducing mercury air toxics and industrial carbon pollution 
will help protect our long standing investment in our outdoor 
heritage. We cannot return to the days when our rivers burned 
and smog darkened the skies and our native species were driven 
to the brink of extinction. We have the pollution control 
technology to right this wrong.
    EPA's recent action to crack down on mercury pollution from 
power plants coupled with the proposed first ever national 
limits on industrial carbon pollution is a milestone in the 
fight to rein in a warming climate that seriously threatens 
people and wildlife. These actions will provide certainty to 
businesses and investors, spur innovation and deployment of 
clean technologies, and help to ignite the revitalization of 
our manufacturing sector.
    We strongly urge Congress to support EPA's mercury and air 
toxics standards and the Agency's current effort to rein in 
carbon pollution, ensuring our outdoor legacy for future 
generations. Now and in the future, the EPA and other Federal 
and State environmental policies can help ensure that the 
legacy that we leave our children is a clean and healthy 
planet.
    And I would ask if not now, when?
    [The prepared statement of Ms. Archambo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Ms. Archambo, thank you so much. Thanks for 
coming, and thank you for your testimony.
    Ms. Dudley, welcome. It is very nice to see you. Please 
proceed.

    STATEMENT OF SUSAN DUDLEY, DIRECTOR, GEORGE WASHINGTON 
 UNIVERSITY REGULATORY STUDIES CENTER, AND RESEARCH PROFESSOR, 
TRACHTENBERG SCHOOL OF PUBLIC POLICY AND PUBLIC ADMINISTRATION, 
                  GEORGE WASHINGTON UNIVERSITY

    Ms. Dudley. Thank you, Chairman Carper and Senator Barrasso 
and members of the Committee.
    In announcing regulations limiting mercury and air toxic 
emissions from electric utilities last December, EPA said the 
rule will reduce mercury from coal-fired power plants by 90 
percent, avoid as many as 11,000 premature deaths per year, and 
provide annual health benefits valued at up to $90 billion per 
year. It estimated that the benefits will be 3 and 9 times the 
estimated compliance cost of $9.6 billion.
    To understand the basis for these remarkable benefit 
estimates, I reviewed EPA's regulatory impact analysis and 
would like to use my 5 minutes to summarize what I found.
    First, reductions in exposure to mercury and air toxics, 
the purported target of the rule, contribute less than one ten-
thousandth of these reported benefits, or between $500,000 and 
$6 million per year. These charts show you the upper and the 
lower bound of EPA's estimates of the benefits of the rule.
    Methylmercury is a neurotoxin that can impair children's 
cognitive function. And as we have heard from other experts, 
children who consume large amounts of fresh caught fish are 
particularly susceptible. EPA estimates that nationwide 25,000 
IQ points are lost each year from mercury exposure from all 
sources--natural and anthropogenic, domestic and international.
    But by reducing mercury emissions from electric utilities, 
EPA expects to reduce that exposure by only 2 percent, 
resulting in a total of 511 fewer IQ points lost nationwide. 
That works out to an increase of .002 IQ points for the most 
susceptible children. And I do not think that includes the 
Sturgeon General's child who catches a fish once every few 
months. These are children of subsistence fishermen; they live 
on eating fish.
    Now, contrast this to the IQ benefits that EPA estimated 
from its regulations removing lead and gasoline that Senator 
Carper mentioned earlier. Those are predicted to have raised 
the average IQ of exposed children by 4 whole points, 2,000 
times what EPA attributes to this rule. And those were achieved 
through a lead trading program at a fraction of the cost that 
EPA estimates here.
    So, where do the benefits of the Mercury and Air Toxics 
Rule come from if not reductions in mercury and air toxics? The 
claimed $33 billion to $90 billion per year in economic 
benefits and associated 11,000 premature deaths avoided are 
derived by counting co-benefits that arise not directly from 
reducing toxic emissions but from other things the EPA predicts 
will happen as beneficial side effects of the controls the rule 
will require.
    Ninety-nine percent of the benefits attributed to the 
mercury rule come from dollar values assigned to reductions in 
emissions of fine particles, or PM, which are (a), not the 
focus of this regulation, and (b), regulated under other 
sections of the Clean Air Act. Almost all of these benefits 
come from reducing PM below the level EPA has already 
determined to be protective of public health through its 
National Ambient Air Quality Standards.
    Eleven thousand premature deaths per year are hard to 
reconcile with the EPA's determination that its PM standard is 
``requisite to protect public health'' based on ``the latest 
scientific knowledge . . . of all identifiable effects [of PM] 
on public health or welfare.'' And if these deaths were real, 
EPA could certainly avert them more cost effectively by 
lowering the Ambient Air Standards rather than going after them 
indirectly using statutory authority designed to reduce toxic 
air pollutants.
    So, the bottom line is that the mercury regulation will 
make little progress toward reducing exposure to the toxic 
emissions that EPA is statutorily obligated to address. The 
emissions reductions from this rule will do little to reduce 
children's exposure to methylmercury and, according to EPA's 
estimate, will have an infinitesimally small effect on their IQ 
and welfare.
    The annual cost of $9.6 billion per year is between 1,500 
and 19,000 times greater than the direct benefits that EPA 
estimates for the rule. And the costs will be borne by all 
Americans, who will pay more for electricity and anything that 
uses it. EPA expects the rule will increase the cost of 
electricity by an average of 3 percent nationwide and over 6 
percent in some parts of the country.
    These price increases could have a significant negative 
impact on the health and welfare of families, particularly low 
income families. By increasing the costs of heating, air 
conditioning, food and other goods and services that contribute 
to public health, the rule will divert scarce resources for 
much more pressing problems and activities that could 
contribute to improved health and economic well-being.
    Thank you.
    [The prepared statement of Ms. Dudley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you. Thank you, Ms. Dudley, very 
much.
    Mr. Holmstead, please proceed. Welcome.

    STATEMENT OF JEFFREY R. HOLMSTEAD, PARTNER, BRACEWELL & 
                          GIULIANI LLP

    Mr. Holmstead. Thank you again for giving me the chance to 
appear before you today.
    My name is Jeff Holmstead, and I am testifying today in my 
role as Counsel to the Electric Reliability Coordinating 
Council.
    As some of you know, I have spent really all of my 
professional life working on Clean Air Act issues, working with 
Government regulators, with private companies, and with 
academics to develop the most effective ways to deal with 
different types of environmental issues. And I am very proud to 
say that I served as the head of EPA's Air Office for more than 
4 years, from 2001 to 2005.
    I would like to just start with two points that I think we 
all agree on. Regardless, well, first, regardless of our 
differences in policy, I think everyone on this panel, and I 
know everyone up on the dais, cares about the health of our 
Nation's children. And it is fundamentally dishonest for anyone 
to suggest that differences over policy means there is a 
difference in how much we care about children or about public 
health. Second, the question is not whether society should 
address mercury but rather what is the best way to do so.
    I also want to comment a bit on EPA's so-called Mercury and 
Air Toxic Standard, which is commonly known as MATS. Like Dr. 
Dudley, I believe that while the goal of reducing mercury 
pollution is laudable, the MATS rule is unnecessarily broad and 
overreaching.
    As Dr. Dudley mentioned, the sole legal basis for this rule 
is regulatory determination that then EPA Administrator Carol 
Browner made in December 2000 based almost entirely on her 
concern about mercury emission from coal-fired power plants. It 
might come as a surprise then that the rule itself has almost 
nothing to do with mercury. As Dr. Dudley and others have 
mentioned, virtually all the benefits that EPA claims for the 
rule, and the vast majority of the costs, have nothing to do 
with mercury.
    So, this $10 billion price tag is not really with mercury. 
You could achieve, even under EPA's approach, those mercury 
reductions at a much, much lower cost. I, like others, have 
concluded that this rule is much more about targeting coal-
fired power plants in part because of greenhouse gas emissions 
than it is about regulating pollution effectively.
    Although it is clear that the rule does provide some 
benefits to human health and environment, they are much smaller 
than EPA has claimed, and there are much more cost effective 
ways of achieving these same benefits.
    Now, I have a lot I would like to say, but 5 minutes is not 
very much. Let me just make three points.
    I think it is very really important that we do not mislead 
the public about mercury. I think all of us here agree that 
young children and especially pregnant women are especially 
susceptible to mercury. But is it misleading to suggest that 
this rule is going to make a perceptible difference in terms of 
reducing the mercury to which they are exposed. And that is not 
my analysis. That is EPA's own analysis.
    It is really important that people pay attention to what 
FDA and EPA and other agencies say about limiting fish 
consumption because even if we were to eliminate coal-fired 
power plants, we would have something like a .002 point IQ 
effect on the most susceptible children.
    So, let us not mislead people into believing that somehow 
this rule solves the mercury problem or even makes a 
significant difference in it.
    Second, anyone who really cares about human health, about 
public health, about children, should care about the cost of 
electricity. Look, anybody who has a child with asthma, anybody 
who is caring for an elderly relative knows that during times 
of the year the most important thing you can do is to get them 
into a room that has good air conditioning. If you make that 
air conditioning a lot more expensive, you are going to have 
problems.
    And I look around this room, and I do not think there is 
anybody here that would have a problem if their electricity 
bill went up by 10 percent, or 15 or 25 percent. But I know 
people for whom that makes a big difference. And we ought not 
to just blithely go about accepting these generalized estimates 
of price increases without looking in specific parts of the 
country where there are a lot of coal-fired power plants. It 
will have a very significant impact on public health.
    The last point I would like to make is there are better 
ways to deal with this issue. And I applaud Senator Carper. I 
know you have cared about this, as have Senator Alexander and 
Senator Inhofe. There are much more effective ways to deal with 
this issue.
    Congressional action would be ideal. If we had followed 
your lead 10 years ago, we would have eliminated a lot of 
mercury that is out there in the environment. We would have 
done it in a much more cost effective way. And I am afraid this 
rule is also legally susceptible and that we may be back again 
in a few years asking about how we can deal with mercury from 
power plants when the real answer is to develop a cost 
effective way that will give a person long-term certainty and 
allow us to reduce our emissions.
    Thank you very much.
    [The prepared statement of Mr. Holmstead follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you very much, Mr. Holmstead.
    Dr. Driscoll, please proceed. Thanks.

STATEMENT OF CHARLES T. DRISCOLL, PH.D., PROFESSOR, DEPARTMENT 
  OF CIVIL AND ENVIRONMENTAL ENGINEERING, SYRACUSE UNIVERSITY

    Mr. Driscoll. Thank you, Senator Carper, Senator Barrasso, 
and members of the Subcommittee for the opportunity to speak to 
you about the science of mercury.
    I am Charlie Driscoll, Professor of Civil and Environmental 
Engineering at Syracuse University. I have been studying 
mercury for 25 years, and I recently participated in a 
scientific synthesis of mercury in the Great Lakes, which I 
will highlight here.
    In many regions of the U.S., the fresh and coastal waters 
that provide food, recreation, and employment to millions of 
people are contaminated by mercury. Most of the mercury 
contamination to ecosystems comes from atmospheric sources. 
Although mercury is a naturally occurring element, the extent 
of its contamination is greatly increased by human activities. 
For example, coal-fired electric utilities are the single 
largest source of mercury emissions in the United States.
    Many regions of the U.S. have consistently high 
concentrations of mercury in fish and wildlife. As we have 
heard, there are fish consumption advisories for mercury for 
all 50 States. Indeed, there are more fish consumption 
advisories for mercury than all of the contaminants combined. 
Note that recent scientific studies have shown that controlling 
U.S. emissions of mercury has decreased mercury contamination 
in the U.S. So, there is some good news.
    One of the questions that I am asked about mercury is, are 
U.S. emissions a major source of mercury inputs and 
contamination in the U.S.? The answer is yes. There are two 
major sources of mercury emissions, elemental mercury and 
oxidized mercury. Coal-fired power plants emit both. Oxidized 
mercury deposits close to the source while elemental mercury is 
capable of global long range transport. However, both forms can 
be deposited in the region from which they are emitted.
    For example, our research shows that trees are very 
effective in scavenging elemental mercury out of the 
atmosphere, providing a pathway by which it can enter the 
ecosystem. In hardwood forests in the eastern U.S., up to 70 
percent of the mercury that is deposited to the land occurs by 
this pathway. This is one of the reasons why remote areas such 
as in the southern Appalachians and my areas in the Adirondacks 
have high inputs of mercury even though they are quite remote.
    These processes suggest that a substantial fraction of U.S. 
emissions from coal-fired power plants are deposited right here 
in the U.S. Once deposited on land, a key process is the 
transport of mercury to sediments and wetlands where it can be 
converted to methylmercury. The concentrations of methylmercury 
increase by a factor of 1 million to 10 million from water to 
fish. This bio-concentration is the reason why our exposure to 
mercury is largely as methylmercury.
    A second question I am asked is, how widespread and severe 
are the impacts of mercury? While the emissions of mercury are 
often clustered in industrialized regions, its impacts are 
widespread. Environmental conditions that facilitate the 
transport and processing of mercury are common across the 
eastern U.S. resulting in large areas where fish mercury 
concentrations exceed the .3 parts per million advisory limit.
    A good example is from our investigation of the Great Lakes 
area where we looked into the mercury contamination across the 
eight Great Lake States plus the Province of Ontario, and we 
found that 61 percent of the land area had average game fish 
mercury concentrations above the .3 parts per million health 
threshold.
    Mercury impacts go beyond human health. They also impair 
the health of the fishery as well as wildlife. And note that 
these and other environmental effects were not included in the 
EPA's benefits analysis for Mercury Air Toxics Rules.
    Finally, I would like to address the question, will 
decreases in mercury emissions from coal-fired power plants 
decrease contamination in the U.S.? Again, the answer is yes. 
There is a lot of evidence of this.
    Sediment records from 91 sites, lakes across the Great 
Lakes region, showed that mercury loading to the region from 
the mid-1800s to the mid-1880s increased five-fold. But over 
the last 25 years it has decreased 20 percent. And this is 
coincident with a 48 percent decrease in mercury emissions in 
the Great Lakes region and despite a 17 percent increase in 
global emissions. Consistent with these trends in mercury 
emissions and sediment loadings is a 25 percent decrease in 
mercury concentrations in wall eye and large mouth bass in the 
same region.
    These findings demonstrate that local and regional 
emissions are important contributors to mercury loading in the 
Great Lakes area. They also show that controls on emissions 
within the Great Lakes region have decreased local mercury 
contamination, and as a result it is likely that additional 
emission controls from coal-fired power plants and other 
sources will have multiple benefits to fish and wildlife as 
well as the people who consume those fish.
    Thank you for the opportunity to share this mercury 
science.
    [The prepared statement of Mr. Driscoll follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you. I thank you all so much.
    Before I ask Dr. Paulson and Dr. Driscoll a question, I 
want to go back to something I think Mr. Holmstead said. I 
think we are going to start voting at about 11:10, so I think 
Senator Lautenberg is going to go to the floor and vote early 
and then come back and spell me so that I can get over and vote 
as well. So, maybe we can keep going. I hope that will work.
    But Mr. Holmstead had mentioned if we had actually followed 
up on what we tried to do about 10 years ago, in 2002 or so, 
that we would be well ahead of the game. And it is unfortunate 
that we did not. It is unfortunate that our legislative 
efforts, Senator Voinovich, Senator Inhofe, Senator Alexander, 
and myself even 2 years ago when we tried to make progress that 
ultimately some folks I think in the Bakelite industry just 
decided that maybe they should just roll the dice and see what 
happens in the election and try their chances in 2011. And that 
is pretty much what we did.
    We have ended up, instead of a legislative approach we have 
ended up with a regulatory approach which, frankly, I do not 
prefer. But having tried a legislative approach for 10 years 
and come up empty, eventually you say, well what is the 
definition of insanity? You know, asking the same question over 
and over again and expecting a different answer. Well, we were 
asking again and again.
    Here is a question, if I could, for Dr. Paulson and Dr. 
Driscoll. In 2003 Mr. Holmstead testified, I do not think it 
was here but I think it was before one of the House committees, 
maybe it was Energy and Commerce, on behalf of then President 
Bush's Clear Skies Legislative Initiative which, as you will 
recall, sought to address mercury pollution through a cap-and-
trade approach.
    In his testimony, he gave estimates to the benefit--well, 
benefits--of the legislation, and he prefaced these benefits by 
saying, and I think this is quote, something to the effect that 
these estimates do not include the many additional benefits 
that cannot currently be monetized but are likely to be 
significant such as human health benefits from reduced risk of 
mercury emissions.
    If somebody asked me what I said 10 hours--again I am not 
sure I can be positive on what I had said so I am not going to 
test your memory for 10 years. That is not fair. But I think 
that is an actual quote. And I realize that EPA under this 
Administration has tried to estimate some of the economic costs 
of not reducing mercury.
    I just would ask of Dr. Paulson and Dr. Driscoll, do you 
feel that these estimated costs are overestimated or are 
underestimated, and is there still much to be learned about the 
true public health and environmental impacts of mercury 
pollution? And Dr. Paulson, why do you not lead off, and then 
Dr. Driscoll if you could comment as well I would appreciate 
it.
    Dr. Paulson. Senator Carper, thank you. I think deriving 
economic estimates about the impact of mercury pollution is 
very difficult information. It is not as crystallized as we 
might like it to be. I would like to refer the Committee to 
some papers by a colleague of mine, Leo Trisante, who currently 
is at NYU, and with your permission I will submit those to the 
record----
    Senator Carper. Without objection.
    Dr. Paulson. Dr. Trisante estimated the economic costs of 
methylmercury attributable to mercury specifically from power 
plants, and he used a methodology that Dr. Driscoll and others, 
Dr. Dudley and others, may be much more familiar than I, the 
Economically Attributable Fraction Model. He limited his 
analysis solely to the loss of intelligence in trying to 
determine the economic impact.
    One of the points that he made that I think is extremely 
important is that the loss of IQ diminishes economic 
productivity that persists over a lifetime. And so we need to 
look at mercury and methylmercury as toxicants that have 
lifelong impacts. Dr. Trisante's research indicates that the 
lost productivity amounts to $8.7 billion annually, and of this 
total $1.3 billion each year is attributable to mercury from 
American power plants.
    So, I think that when you start to figure annual healthcare 
costs and schooling costs and lost productivity from people not 
being able to have as good a job as adults as they otherwise 
would have had that the economic benefits of reducing mercury 
in the environment do loom larger than they might otherwise 
seem.
    Senator Carper. OK. Thanks so much.
    Dr. Driscoll, please, the same question.
    Mr. Driscoll. OK, beyond human health benefits we know that 
concentrations of mercury that we measure in fish and wildlife 
have clear health impacts on that fish, so it affects the 
fishery, and it affects the health of wildlife. So, clearly 
those benefits have not been considered in this analysis.
    Senator Carper. OK.
    I was kidding Mr. Holmstead a minute ago about not being 
able to remember what I said 9 hours or 9 days or 9 months ago. 
I do remember, though, being in this hearing room, and I do not 
remember that Dr. Barrasso joined us yet in the Senate. He was 
back doing his work in Wyoming.
    But we had a hearing here, and the question--I think it was 
2003 or 2004--and the question would the utility industry be 
able to actually meet a reduction goal within, I do not know, 
4, 5 or 6 years, of 80 percent reduction in mercury. And we had 
maybe four or five utilities that were here, and we had one 
person who was from the industry that develops technology for 
reducing emissions. It was like the trade association.
    We had, as I recall, all the utilities said it is just not 
realistic to do, can they achieve an 80 percent reduction 
within the timeframe which was--I do not know, 5 or 6 years, I 
think--and we got to the guy who was from the trade 
association, and he said no, no, I think we could do that. In 
fact, we might be able to do better than 80 percent in that 
timeframe.
    And as we all know now, we have the technology to do this. 
We have the technology now. And what I am hearing, anecdotally, 
from an earlier hearing and even today is that the cost of that 
technology does not appear to be going up. It actually appears 
to be coming down, which gives me cause for hope, and I hope 
for you as well.
    Dr. Barrasso.
    [The referenced material was not received at time of 
print.]
    Senator Barrasso. Thank you, Mr. Chairman.
    I just want a show of hands because, Mr. Holmstead, you 
said irrespective of our differences in policy, everyone on 
this panel cares about the health and future of our Nation's 
children. And these efforts are not advanced by having 
differences over policy portrayed as differences in caring 
about children. Does everybody agree with that? Yes? OK, thank 
you.
    So given that, Ms. Dudley, I think everyone in the room is 
concerned about children. In your written testimony you said 
you found it disconcerting the assertion that the rule will 
provide particularly benefits to children when over 90 percent, 
you said, of the reported benefits are from averted premature 
deaths that the EPA models will accrue to people with a median 
age of 80 years of age.
    So, EPA has been going around saying that this is rule is 
about children's health, but we have heard testimony today from 
the majority's witnesses who are saying that it is not about 
children's health. Is this a case of false advertising to 
concern citizens and to concern parents?
    Ms. Dudley. Well, I would say it is misleading. And I 
should reemphasize that the statistics that I presented are all 
directly from EPA's own analysis, including that information on 
who the beneficiaries are; this is not a children's health 
rule. Ninety-nine percent of the benefit is from PM, and that 
tends to accrue to older Americans. Now, that does not mean 
there is anything wrong with that. But we should be honest 
about it.
    Senator Barrasso. OK. You also talked about the EPA rule, 
the increased cost of electricity, and that the price increases 
could have a negative impact on the health and welfare of 
families, particularly low income families. I think Mr. 
Holmstead mentioned that as well. Based on your analysis about 
the concerns over the claims of the health benefits under the 
Utility MACT and given the statement about the negative health 
impact on families from electricity price increases, you say 
this rule could actually hurt public health as opposed to help 
it?
    Ms. Dudley. Yes, because how much money you have to spend 
on things influences your health. As Mr. Holmstead mentioned, 
everybody in this room can afford a little more in electricity. 
But I think for the low income Americans, particularly the ones 
who are the target of this regulation, that difference is a big 
difference. It makes a big difference in your ability to 
protect your children, educate your children, and provide for 
their health and welfare.
    Senator Barrasso. Mr. Holmstead, you referred to EPA's 
effort to promote their Utility MACT rule as a ``public 
relations campaign'' and that the rule seems to be more about 
shutting down coal-fired power plants than regulating them 
effectively. Describe in more detail, if you could, what you 
mean by this public relations campaign, and why the EPA would 
need to wage a public relations campaign, and why are so many 
States not buying it.
    Mr. Holmstead. Well, I guess my concern is really similar 
to Dr. Dudley's as there has been a great effort to say this is 
all about protecting children from air toxics and mercury, but 
in fact it is not. It is not only the benefits come from other 
things, but most of the costs. And Senator Carper is absolutely 
right. The technology has developed a lot. If we wanted just to 
reduce mercury emissions, it could be done at a tiny fraction 
of the cost here.
    So, I guess what I object to is the idea that this is being 
publicly portrayed as an effort to protect children's health 
from mercury when in fact, according to EPA, it has very little 
impact on children's health, and the costs and the benefits 
really are quite different.
    Senator Barrasso. Ms. Dudley, you have a lot of experience 
in this, and I go through all your testimony. In your opinion, 
could the EPA do a lot better job and get us a lot more 
benefits at a lot lower cost to the economy than what they are 
proposing with this rule?
    Ms. Dudley. Yes. I think Mr. Holmstead is better able to 
address this within the constraints of the Clean Air Act; he 
knows the Act much better. But I think, in EPA's defense, part 
of the problems is that the Clean Air Act does impose some 
constraints that restrict it from considering certain things, 
require it to consider other things.
    So if this Committee is interested in finding ways--and I 
know Senator Carper has tried to do this in the past--of 
addressing these issues, I volunteer my Center's help as you 
think about ways to improve the Clean Air Act.
    Senator Barrasso. Mr. Holmstead, do you want to add 
anything more to that?
    Mr. Holmstead. There are certainly ways within the existing 
Act that this could be done in a much more targeted way. If the 
desire here is to reduce PM<INF>2.5</INF>, there is a whole 
other section of the Clean Air Act that Congress designed and 
intended to deal with PM<INF>2.5</INF>. It is much more 
flexible, and you could achieve these same benefits at a much 
lower cost.
    Senator Barrasso. I just want to add, Mr. Chairman, there 
was a comment about the Southern Company and their ability to 
do some of these things. I think it is appropriate to say that 
Southern Company has assured investors that it would have a 
compliance strategy in place for the mercury rule, not that it 
supported the rule or found it to be appropriate for the 
consumers and for the environment.
    They filed literally hundreds of pages of comments pointing 
out the substantial flaws in the rule, and they have actually 
sent us a letter that I would like to put as part of the record 
dated March 21st----
    Senator Carper. Without objection.
    Senator Barrasso [continuing]. That specifically states 
their concerns, because at our last hearing, EPA Assistant 
Administrator Gina McCarthy made a comment about Southern 
Company's compliance with the rules and said that they could 
comply with the rule by 2016. They have actually, they report 
to us that they have not said that the compliance with the MACT 
will be achieved by then.
    Senator Carper. OK. Without objection.
    Senator Barrasso. Thank you, Mr. Chairman.
    [The referenced letter follows:]
    [GRAPHIC] [TIFF OMITTED] T5417.052
    
    Senator Carper. Thanks.
    And Senator Merkley is going to stay and ask questions. I 
am going to run and vote. I think Senator Lautenberg will be 
back, relieve him, and hopefully we will be able to keep this 
going.
    And Jeff, I am going to run and vote. All right. So, let us 
just keep this going. Thanks very much. Thanks, Senator 
Merkley.
    Senator Merkley [presiding]. Thank you, Mr. Chair.
    I am trying to sort out some aspects of this conversation. 
My understanding is that largely we are talking about upgrading 
or replacing power plants that were grandfathered under 
previous regulations and now will have to be either replaced or 
seriously upgraded and that as multiple values, if you will, on 
different forms of pollution.
    Is the technology--and Dr. Driscoll maybe you can try to 
give me a brief version of this--does the technology that 
addresses mercury represent the cost expressed here, or are the 
costs really the costs of replacing and upgrading these 
previously grandfathered coal burning power plants with the 
mercury control technology a very small portion of that?
    Mr. Driscoll. I am not the person to answer that question.
    Senator Merkley. Does anyone have the expertise to answer 
that?
    Mr. Holmstead.
    Mr. Holmstead. Yes. If this were only about installing 
mercury controls, the costs would be relatively minor for most 
plants. It depends a little bit on the type of coal that is 
used. The real cost comes not from the mercury controls but 
from other controls that EPA is requiring under the rule. But 
there is technology today much improved over where it was 7 or 
8 years ago that can effectively reduce mercury, maybe not to 
90 percent, depending on the coal, but it is relatively cost 
effective.
    Senator Merkley. So, what we are really talking about when 
we look at these costs are really the overall upgrading of 
these previously grandfathered coal burning power plants.
    Mr. Holmstead. Well, the term grandfathered is highly 
misleading. All of these plants are regulated under many 
different programs. A lot of the cost comes from shutting down 
plants that are minor sources of hazardous air pollution. So, 
typically when EPA does these regulations they only apply to 
major sources.
    When you have a fair number of older plants that only run 
during peak periods that are not major sources because they do 
not run very often, and EPA decided to require controls on 
those plants, and those plants just cannot sustain, they do not 
operate enough to justify spending hundreds of millions of 
dollars on controls.
    So a lot of the cost is from shutting down those plants 
that are really used primarily during peak seasons but are 
important for keeping rates down because during peak season is 
when the rates go the highest, and that is when these come into 
place.
    Senator Merkley. We are seeing an interesting dynamic now 
in the energy market where a lot of less efficient power plants 
are being replaced by natural gas plants because of the 
plummeting cost of natural gas, and I do not know how that 
affects all of these price estimates, but it may have; it is a 
fairly recent influence.
    I wanted to turn, Dr. Paulson, to try to understand better 
the anthropogenic or background sources of mercury versus the 
human produced versions because I have heard wildly different 
statistics on this. If you are kind of the typical person, if 
you will, somewhere in the country, is there a way to kind of 
sort out well how much of the mercury you experience, if you 
will, the wildfires that have been referred to, environmental 
effects such as volcanoes worldwide, Chinese coal burning 
versus American sources. Can you kind of sort out the sources 
for us in terms of percentage of impact?
    Dr. Paulson. I really cannot, but I will try to get you 
some information about that. I do not--you know, the molecules 
of mercury or the elemental mercury in the air does not come 
with labels. But I think what is very clear to me, and what is 
very important to me is that no matter where the mercury comes 
from, it is harmful to children. We have no control over 
volcanoes, extremely little control over wildfires. But we do 
have ways of controlling what is emitted from coal-fired power 
plants. And we should assume the responsibility for limiting 
those emissions.
    Senator Merkley. Dr. Paulson, thank you.
    Dr. Driscoll.
    Mr. Driscoll. Yes, so I guess the simple answer is that 
about one-third of the mercury comes from direct human sources, 
about one-third is what we called recycled, recycled largely 
human directed sources, and then about one-third is from 
natural sources. A large part of the rub here, if you will, is 
the fact that mercury is released to the atmosphere and then 
cycles for hundreds of years before it is sequestered, so that 
is the source of the mercury that gets into vegetation and is 
released from biomass. It may be--has been around for hundreds 
of years, and so that is part of the issue that I think you are 
alluding to.
    Senator Merkley. So, help me understand the difference 
between what you call direct human and recycled human directed.
    Mr. Driscoll. Say that again?
    Senator Merkley. Help me understand the distinction between 
the one-third that is direct human activity and the one-third 
that I think you referred to as recycled or human directed.
    Mr. Driscoll. So, about one-third goes through natural 
sources such as volcanoes directly to the atmosphere.
    Senator Merkley. So, we will set that one aside.
    Mr. Driscoll. OK. So about one-third is direct human 
release, say from power plants and other sources, incinerators 
and things like that. And then another third is recycled 
mercury that has been previously released, deposited, and then 
is re-released back into the----
    Senator Merkley. Re-released by humans? Re-released how?
    Mr. Driscoll. Solar radiation can convert mercury to a form 
to go back into the atmosphere. It can be, as you said, burned 
with forest fires----
    Senator Merkley. OK, so, yes, essentially two-thirds came 
initially from human sources, about one-third has gone through 
one cycle and another third of it is coming back a second time 
around----
    Mr. Driscoll. Correct. Or a third time.
    Senator Merkley. So, two-thirds from human activity. If we 
were to try to understand the impact or the distinction between 
the amount of coal and the controls in China versus the amount 
of mercury being generated in the U.S., do you have any sense 
of the ratio involved there?
    Mr. Driscoll. There is--overwhelmingly Asian is the major 
source. But I should add that location is very important. 
Location matters. There are processes by which mercury that is 
emitted locally can be deposited locally. So, overwhelmingly 
the location of the facility where it is being emitted is very 
important in terms of where it is deposited.
    Senator Merkley. Thank you.
    I am going to have to check with staff here because I have 
to run and vote, and I am not sure if we are going to pause or 
we are going to adjourn.
    Ms. Dudley. Senator, do you mind if I make a brief----
    Senator Merkley. I am sorry; I have to be on the floor in 
just a few minutes, and I have got to run. But please follow up 
with me.
    We are going to adjourn until Senator Lautenberg returns. 
So, I think that we are anticipating that will be just a minute 
or two. So, I officially declare this Subcommittee adjourned. 
Thank you.
    [Recess.]
    Senator Carper [presiding]. I thank you all for your 
patience. All too infrequent things happen, the bipartisan vote 
in the Senate to proceed to the Postal Reform Bill.
    We thank you, Senator Sessions, for your help and for other 
colleagues' as well.
    All right. Senator Sessions, you are recognized, please. 
Thank you.
    Senator Sessions. Thank you, Mr. Chairman. You do such a 
great job, and it is always a pleasure to work with you.
    Mr. Holmstead, the Bush administration put a lot of effort 
into the mercury evaluation. How much would the Bush 
administration rule that you were there and part of developing, 
how much would it have reduced the emissions of mercury?
    Mr. Holmstead. Ultimately, it would have reduced emissions 
by 70 percent. But it was very different from this rule that 
basically says, you know, you have got one date out in the 
future, and you know, you come to this cliff, and by 2016 you 
have to install these controls.
    It was a market-based program that would have gotten the 
biggest emitters to reduce their emissions first. So, it would 
not have been 70 percent at the beginning, but it would have 
gotten very substantial reductions long before now. And those 
would have gone down gradually as opposed to what we are now 
talking about as you go along and you go off this cliff, and 
that is one of the things that is challenging about it.
    Senator Sessions. So, had it been in effect and had been 
fixed immediately to satisfy the court, we would already have 
seen reductions in mercury emissions that we are not seeing 
today?
    Mr. Holmstead. That is correct.
    Senator Sessions. My understanding is that, and I have 
looked into this at some depth, but my impression was that much 
of this was driven by a CDC, Center for Disease Control, study 
saying what the maximum amount of mercury that should be 
ingested, and they reduced the maximum amount substantially. 
Was that a factor in driving the new regulations at the time in 
the Bush administration?
    Mr. Holmstead. It was--I cannot say that either it was, or 
it was not. I just knew that the President had made a 
commitment to reduce SO<INF>2</INF> and NO<INF>x</INF> and 
mercury through a market-based system. Now, I do remember 
something about that number going down a lot based--but maybe 
others on the panel know more about that.
    Senator Sessions. I would just say that, that was disputed. 
There was not real clear science on that. And I guess the CDC 
was in a position where they were not looking at the costs or 
anything; they just simply were coming up with that.
    The studies at that time evolved around epidemiology 
studies in the Seychelles Islands, the Pharaoh Islands in New 
Zealand. Is that correct, if you recall?
    Mr. Holmstead. I do recall discussions about those two 
studies, yes.
    Senator Sessions. Because these are heavy fishing islands, 
and people that ingest a very great deal of fish and with 
regard to, I think, the Pharaoh Islands, whale meat, blubber, 
which reminds me of that old saw, a guy heard that some of the 
travel people were eating the whale meat and blubber and you 
would blubber, too, if you ate whale meat.
    [Laughter.]
    Senator Sessions. I think that was a Jack Benny line or 
something.
    [Laughter.]
    Senator Carper. That aside will not count against your 
time.
    [Laughter.]
    Senator Sessions. Well, we want to get this right. I guess 
I'm saying there, I was really intrigued by Dr. Paulson when 
you said there are no safe levels, but there is so much mercury 
naturally occurring so there is no way we can get to zero.
    According to this Wall Street Journal article last year, it 
says that 9,000 to 10,000 additional tons are emitted from 
volcanoes, sub-sea vents, geysers and other sources each year, 
whereas the U.S. coal plants emit 41 to 48 tons of mercury a 
year. And we are substantially reducing that in an effective 
way.
    According to the Wall Street Journal, since our power 
plants account for less than .5 percent, less than one-half of 
1 percent, of all the mercury in the air we breathe, 
eliminating every milligram of that would do nothing about the 
other 99.5 percent in the atmosphere. Is that an accurate 
scientific thing, or do you know? And would you have a comment 
on that?
    Dr. Paulson. Well, Senator Sessions, I will turn more to my 
colleague at the far end of the table in terms of his testimony 
about the percentage distribution of different sources.
    The point that I want to respond to relates to the health 
impact of mercury and our moral obligation to protect children 
from the mercury that we do have potential to control. And you 
are quite right that we have no potential to control mercury 
from volcanoes or sea vents.
    Senator Sessions. Well, I think our moral obligation, as 
was suggested by Dr. Barrasso, is to utilize the limited 
resources the United States has to get the greatest impact for 
public health and safety. And Dr. Driscoll, are those numbers 
in the realm of accurate, the 99.5 percent being other than 
coal-fired plant emissions and mostly natural?
    Mr. Driscoll. I think, from my understanding, that those 
are very uncertain numbers. But those are much higher than 
numbers that I think are--the general scientific community 
would buy into. So, I think, you know, the estimates that I 
have seen are considerably lower than that. So, I would go back 
to what I had said previously, that the general thinking is 
that there has been about a three-fold increase in mercury 
emissions from human activities, and about a third is natural, 
about a third is direct human inputs, and then a third is 
recycled, previous emissions that have been released and then 
have been recycled.
    Senator Sessions. But you acknowledge that even as our 
population has increased we have got a 40 percent reduction in 
mercury emissions from power plants.
    Mr. Driscoll. We have done a good job, and we can see the 
benefits of that. We have seen reductions in mercury in fish 
locally as a result of those controls. So you are right. It has 
been a success, and I think if we did the CAMR Rule that was--
we would be a lot further along today if that had been 
implemented. So, I would agree with Mr. Holmstead as well.
    Senator Sessions. Well, I thank all of you.
    This has been a good panel, Mr. Chairman, and a valuable 
panel. Mercury is dangerous; it scares people. But when the 
numbers and the amounts are so low, we have got to be 
realistic. And I do not think it can be our position that 
regardless of cost we will eliminate every single microgram of 
mercury. I just do not think that is realistic.
    So, what is the best thing for America? How can we move 
forward and keep us in a healthy economy and make progress? I 
believe there are plans out there that will do it. I look 
forward to working with you and Members of the Committee on 
that.
    Thank you.
    Senator Carper. Sounds great. Thank you, Senator Sessions.
    Let me come back, if I could, to Dr. Paulson. I will ask 
you a couple of questions and then yield to Senator Lautenberg 
unless Senator Barrasso comes back in the meantime. I think he 
might. So, we will do another round of questions here.
    Dr. Paulson, if I may. I want to ask you to take just a 
moment to respond to the assertions that were brought forward 
by Ms. Dudley and Mr. Holmstead that the EPA's efforts--I think 
I understood them to say this--that the EPA's efforts to reduce 
mercury and air toxics will actually hurt rather than improve 
public health.
    Dr. Paulson. Thank you, Senator Carper. I know with any 
legislation or regulation we always worry about unintended 
negative consequences. And if I am understanding what I am 
hearing here, we are worrying about unintended positive 
benefits of reducing other air toxics in addition to the 
mercury, other toxic chemicals which damage the lungs of 
children and impede their health.
    I think that there is no doubt that decreasing family 
income, disposable income, can adversely affect their health. 
But I think there are direct benefits from reducing the mercury 
as this rule would go forward, as well as significant health 
benefits from the reduction of the other air pollutants that 
would be limited by this regulation.
    Senator Carper. Do you feel comfortable in talking about 
some of the other air toxics that would reduce under this rule 
and why that might be a good thing for health for those 
children or adults?
    Dr. Paulson. We know that inhaled air pollutants are 
absorbed, in many instances are absorbed into the body, and we 
know that with the lungs there are sensitive periods of 
development, not so much in utero, that might be impacted by 
air pollution the way mercury can impact the brain in utero. 
But certainly, once children are born, the lungs continue to 
develop until some people say adult height is reached, so 
somewhere in teenage years. Some people think that the lungs 
continue to develop even beyond that into early adulthood.
    But is very, very clear that air pollutants do adversely 
impact the growth of lungs such that children who grow up in a 
more highly polluted environment have smaller lungs in their 
early 20s than other children. And while they are not--the 
difference is not sufficient to be clinically evident, my 
concern is that if there are two people, one with a lower level 
of lung reserve than another at 20, all of us, by normal 
processes, lose lung reserve as we age. And so, if you have got 
less to begin with at 20 than somebody else, does that mean you 
are more likely to end up with chronic obstructive pulmonary 
disease--sometimes called emphysema--than somebody else?
    I do not know the answer to that question that I have 
posed, but I certainly think there is reason to be concerned, 
and I certainly think that the demonstrated differences in 
pulmonary development are there and real.
    Senator Carper. Thank you.
    Ms. Dudley, very briefly, if you will, just very brief 
because I want to be able to ask a question of Ms. Archambo.
    Ms. Dudley. OK. Looking at EPA's analysis of the benefits 
of this rule, it is clearly not a children's health rule. The 
effects on children, I am looking at Table 519, they are all 
within the rounding error. This is a rule that all the benefits 
are not, are definitely not going to children.
    Senator Carper. All right.
    Ms. Dudley. And I would be happy to submit some things for 
the record.
    Senator Carper. That would be great. Thank you, thank you 
madam.
    Ms. Archambo, if I could, a question. As a Michiganer, 
Michigander, is that how you say it? Is there a particular 
baseball team that you are favoring in this year's American 
League pennant race?
    Ms. Archambo. Can I plead the fifth?
    [Laughter.]
    Senator Carper. No, no, you cannot.
    [Laugher.]
    Senator Carper. I am a huge, lifelong Detroit Tigers fan. 
If you are not, I am disappointed. We will go to someone else 
on the panel.
    [Laughter.]
    Senator Carper. All right. You can plead the fifth.
    [Laughter.]
    Senator Carper. What changes have you had to make, in your 
own life, with the increasing number of mercury fish advisories 
in your home State?
    Ms. Archambo. Well, changes that I would have, or have 
made, is I always look at the fish consumption advisories 
before a group of us will go to a certain water body to fish. 
And there is more and more catch and release fishing now. It is 
what it is. But as the fish grow and age, we know that there is 
more contaminate loads in them, and so they should not be 
consumed.
    But the other thing that I have been doing is trying to 
educate and engage, especially women and children, that as they 
go and fish that they should be very mindful of whether they 
can eat whatever species of fish that they caught, whether it 
is a meal once a week, or once a month, or not to eat that fish 
at all.
    Senator Carper. All right. Just very briefly, what has been 
your reaction to the recent efforts by the Federal Government 
to clean up mercury air pollution?
    Ms. Archambo. There has been a lot of positive support in 
the sportsmen community for this rule because, you know, we 
have had to worry about mercury advisories for a long, long 
time, and PCBs and dioxins. And I could go on.
    Last December we facilitated a sportsmen's tell a town hall 
and reached out to sportsmen and women across Michigan, and we 
were able to reach 14,000 sportsmen, hunters and anglers who 
definitely support this rule and are very concerned that the 
contamination could, in fact, be getting worse and that we need 
to do something now.
    Also last year, the sportsmen community joined together, 
and about 330 sportsmen's organizations across the country 
representing several hundred thousand members spoke up on 
behalf of the Clean Air Act and the reduction of mercury for 
our outdoor heritage and our hunting and fishing heritage, 
urging our Members of Congress to please look seriously at this 
rule and in defense of the Clean Air Act.
    Senator Carper. OK, thanks so much.
    Dr. Barrasso.
    Senator Lautenberg. Mr. Chairman
    Senator Carper. Yes, sir.
    Senator Lautenberg. Is there some kind of order that we are 
asking questions now?
    Senator Carper. No, if you would like to, go ahead. I went 
first, Dr. Barrasso, and then we went back to you. But if you 
would like to go, go ahead.
    Senator Lautenberg. Forgive me, Dr. Barrasso.
    The challenge to some of the numbers about--I think, Mr. 
Holmstead, you used the word perceptible differences in the 
emission, or maybe imperceptible, of mercury, and it sent me to 
think about what is perceptible? If you stand and look at one 
of your grandchildren, and they are less able to keep up 
because of cognition problems, to keep up, is that--do you say 
well, he is not really that far off; it is imperceptible? I do 
not think so. I do not think so.
    We have spent $1.4 trillion on two wars. We have lost, 
6,400 dead, 47,000 wounded. The cost is terrible. But it is a 
cost that we have to bear. It is a cost that we have to assume 
because we believe, or it is believed, that we are making 
ourselves safe, safer from attack from terror attacks or 
attacks on our people who are stationed in Afghanistan and 
still in Iraq.
    And I do not know whether the 300,000 figure of children 
who are born affected each year. Is there any challenge to that 
figure?
    Mr. Holmstead. I think, the thing that has been somewhat 
misleading about the discussion is that this regulation will 
have any appreciable effect on that number----
    Senator Lautenberg. Appreciable. Those are the words that I 
love to hear----
    Mr. Holmstead. Well, I mean, I think we should----
    Senator Lautenberg. Appreciable perception. We are talking 
about children.
    Mr. Holmstead. No, and I have children, Senator. And I also 
have good friends who have children who suffer from asthma, and 
if you are going to increase their power bill, I think you need 
to explain to them why you are going to do it.
    Senator Lautenberg. I have one of them also, yes. The 
perceptible, the small difference. Not if it is your kids, not 
if it is my kids. His kids, her kids, then it is something that 
we have to live with. If we can spend over a trillion dollars 
on wars, and by the way I consented to some of those 
expenditures, but we did it because we genuinely believed that 
it would protect us in some way.
    And so, when we talk about $10 billion worth of cost, and I 
am told that the benefit per dollar is $3 to $9 in health 
benefit cost reduction, and so, Mr. Chairman, I think that it 
is very important that we put this out there, make sure that it 
is understood what we are talking about.
    It is often said around here perfection is the enemy of the 
good. Well, if we do not get the precise results that we would 
like, but we get a lot of results that would enable our newborn 
to be healthier, I think we have to respond to the question 
what is the most important thing in life?
    I came from a very successful business career, and I cut 
costs or made investments based on the value. And to me, the 
value here is one that I would have hoped, Mr. Chairman, that 
we would get some agreement that this is a worthwhile pursuit. 
And we ought to move forward with it. And let votes be counted, 
in Committee, or hopefully, if we get to the floor, let the 
votes be counted as to whether or not the damage to our newborn 
is sufficient enough of an alarm for us to raise the flag and 
say hey, we have got to do this.
    I have an asthmatic grandson. I have a diabetic 
granddaughter. It is extra duty for two of my daughters. We 
love them dearly and wish my daughter did not have to take my 
grandson to find out where the nearest emergency clinic is when 
he goes to play sports. And if she hears wheezing, she knows 
she has got to get him to the clinic.
    I had a sister who had asthma, and she carried a little 
breathing device in her car and could plug it in when 
necessary. We traveled together so it came in handy. She was at 
a school board meeting in Rye, New York, where she was a member 
of the school board, and she felt an attack coming on. She got 
up, left the board to go the parking lot, collapsed in the 
parking lot, and died 3 days later at age 53.
    So, whatever we can do to ease the burden. This is a 
terrible plague on our society when you think that if those 
numbers, 300,000, have any reliability, we owe this to the 
national interest as well.
    Thanks, Mr. Chairman.
    Senator Carper. Thank you, Senator Lautenberg.
    And I want to thank Dr. Barrasso for yielding, and you get 
the last questions.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Holmstead, Senator Inhofe is not able to be here to ask 
his question. He is talking about using the Congressional 
Review Act on Utility MACT and some of the people that oppose 
that claim that if it were to pass, EPA would be prohibited 
from regulating mercury. You have a long history and knowledge 
in this. Could you maybe speak about that? And would the EPA 
still be able to regulate mercury if the Congressional Review 
Act were successful?
    Mr. Holmstead. Oh, I think it is quite clear that they 
would. I have heard this argument and it is a little puzzling 
because it is true that the Congressional Review Act prevents--
would prevent EPA from doing a rule that is substantially 
similar to this rule, but a rule that puts restrictions on 
mercury would not be substantially similar to a rule that 
imposes, you know, $9 billion-plus on all kinds of other things 
that have nothing to do with mercury.
    So, I think there is no question that even if a 
Congressional Review Act Resolution were to be adopted, it 
would not prevent EPA from doing something important to reduce 
mercury emissions.
    Senator Barrasso. OK. Thank you.
    Ms. Archambo, Senator Lautenberg just made a comment about 
the enemy of good and the perfect and some of the things that I 
talked about a little earlier. I had mentioned in my opening 
statement that the Senate had an opportunity to reduce mercury 
emissions by 70 percent back in 2005. Would Michigan lakes, 
sturgeon, sportsmen, families have been better off had those 
reductions already gone into effect when they had an 
opportunity to pass that in 2005?
    Ms. Archambo. Absolutely. I really think that going 
forward--I understand history is important, but I am looking 
out in front of where we do we go next, and you know, whether 
the rule protects children, whether the rule protects middle 
aged or adults, it is very important that we look going forward 
because to have a healthy economy we have to have healthy 
people and to have our tourism economy in Michigan is, you 
know, there is top three, manufacturing, tourism, and 
agriculture, and it is very much impacting our sport fishing 
industry, and reducing the mercury in air toxics is going to 
help our history or our future in tourism and our sports 
fishing industry.
    Senator Barrasso. Thank you.
    Ms. Archambo. So, reducing them is--no matter how we get 
there, we need to start now.
    Senator Barrasso. All right. It would have better off if 
they had done it in 2005?
    Ms. Archambo. Sure.
    Senator Barrasso. Great.
    Mr. Holmstead, in your written testimony, you tell us that 
24 States field legal challenges to the EPA's MATS Rule, the 
highest number of States ever to challenge the EPA rule, and 
that among those petitioners are included fully a quarter of 
the Nation's sitting Democratic Attorneys General. Opposition 
to the EPA Utility MACT Rule is bipartisan and nationwide. Why 
do you think that is going on? What is your opinion on that?
    Mr. Holmstead. Well, we really have kind of seen this 
divide that is much more regional than partisan. And there are 
parts of the country that have, that depend on coal-fired 
generation for affordable, reliable power, and whether you are 
a Democrat or whether you are a Republican, you do not want 
your rates to go up unnecessarily. And I know--I have seen some 
of the press releases from those Attorneys General, and they 
are concerned not only on the costs, but also the reliability 
issues. So, it is newsworthy, but I do not think that we have 
ever seen this many States challenge an EPA rule and to the 
point that I think you and the Chairman raised earlier, this is 
another legal challenge likely to set us back, and again we 
have not seen the briefs. Who knows? But until Congress steps 
in and does something sensible, we are going to be at the mercy 
of, you know, this trying to accomplish something that maybe 
the Clean Air Act was not well designed to do, and it would be 
better if Congress would just, you know, put us on a 
sustainable path that cannot be challenged in Court.
    Senator Barrasso. Ms. Dudley, anything you would like to 
add to that?
    Ms. Dudley. I think that addressing mercury directly and 
cleanly rather than justifying it based on these benefits that 
really are not about children and are not about mercury would 
be a big improvement. Even if this regulation eliminated all 
mercury emissions from electric utilities, it would result in, 
based on EPA's analysis, only a 3 percent increase in the IQ 
that they are observing from mercury. Mercury is an element 
that cannot be created, cannot be destroyed, so we have to very 
aware of what this regulation will do.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you so much, Dr. Barrasso.
    Sometimes I like to wrap up by--you know, we always ask you 
to give an opening statement. Sometimes, if we have time, I 
like to ask our entire panel to give like a, sort of a little 
short closing statement, almost like a benediction.
    [Laughter.]
    Senator Carper. I am going to do that here today and just 
ask you maybe to take 30 or 45 seconds, no more than 60 
seconds, just any closing thoughts you would have for us as we 
prepare to go back to work.
    Would you start, Doctor?
    One of the things, you know, when we have a panel like 
this, not everybody is on the same page. We are on some of the 
same pages, concerned about mercury, want to make sure that we 
do something that is cost effective to deal with that and other 
air toxics, but I sometimes like to have a panel like this that 
can help us move toward consensus. With that in mind, if you 
would just fashion your benedictions with that thought in mind.
    Dr. Driscoll, please.
    Mr. Driscoll. Thank you. I would just like to reiterate 
what I said previously, that there have been controls on 
mercury emissions, and they have been successful, and they have 
resulted in decreases in mercury deposition and concentrations 
in fish. So, if we can control it, it will reduce the problem.
    Senator Carper. Thank you.
    Mr. Holmstead.
    Mr. Holmstead. I really have spent the last 20 some years 
looking at the Clean Air Act, working with economists and 
scientists and regulatory specialists to try to understand the 
most effective way to accomplish our regulatory objectives. I 
think all of us here agree that reducing mercury is an 
important objective, something that we all can collectively 
agree on.
    I just find it puzzling that this is the choice that EPA 
made which imposes such substantial and unnecessary costs when 
there are regulatory tools even in the Clean Air Act that would 
allow them to do it in a much more fair and much more targeted 
way.
    So, I, as you may have guessed, I am not a big fan of this 
rule. But I do think EPA has the tools it needs to do effective 
rulemaking and to do it to divest mercury from power plants.
    Senator Carper. Thank you.
    Ms. Dudley. Is it Ms. Dudley or Dr. Dudley?
    Ms. Dudley. It is Ms. Dudley, or Professor Dudley, if you 
prefer.
    Senator Carper. Professor Dudley. I will get it right.
    Ms. Dudley. See, now you have got me off track. My minute 
is ticking down.
    [Laughter.]
    Ms. Dudley. I think people are right to be concerned about 
exposure to methylmercury, and we are obviously right to care 
about our children's health and children's ability to grow up 
to be productive and fulfilled adults. But I do not think this 
regulation is the right way to get there. I think there are a 
lot more effective ways to achieve those goals.
    Senator Carper. OK. Thank you.
    Ms. Archambo. General.
    Ms. Archambo. Thank you, Senator. I want to thank you for 
the opportunity to be here today, again, from the Great Lakes 
State of Michigan.
    Senator Carper. How far do you live from Paw Paw?
    Ms. Archambo. I live up here.
    Senator Carper. No, from Paw Paw.
    Ms. Archambo. From Paw Paw? Three hours.
    Senator Carper. OK, thanks very much.
    Ms. Archambo. You are very welcome.
    The Clean Air Act has a long history of success in reducing 
pollution such as acid rain and smog that threatens our fish 
and wildlife and their habitats. And America's hunters and 
anglers, and the $79 billion industry that supports them, and 
so we are glad to see long overdue action to reduce mercury 
pollution regardless of how we get there, regardless of what 
form within the Clean Air Act, regardless of what we need to do 
to get there, now is the time to pull together bipartisan 
leadership to get it done and soon.
    This unique partnership formed in the 19th century 
continues to be at the heart of conserving wildlife, and we 
strongly urge you to prevent any congressional roll back of the 
Clean Air Act. Thank you.
    Senator Carper. Good. Thanks so much.
    Dr. Paulson, last word.
    Dr. Paulson. Thanks, Senator Carper. We can have cleaner 
air and cleaner water and healthier citizens in the United 
States. And it is a false dichotomy to say that we can only 
have that at the expense of jobs or the economy. We can and 
must have both. A cleaner environment and healthier people make 
for a healthier economy, people who can go to work successfully 
and contribute to the betterment of our society. And I think 
that is what we all need to work to achieve. Thank you.
    Senator Carper. Thank you all. Thank you for those closing 
thoughts.
    I will just offer a short closing thought of my own. Let me 
just say, in response to comments of a couple of you, this is 
not the first run we have made at this, this problem. Ten years 
ago or so some of us on this Committee sought to deal with it 
legislatively. Two years ago, we tried really hard to do 
something about it legislatively and were unsuccessful, 
ultimately, in the end. I think to the chagrin to some today.
    We tried--Mr. Holmstead knows we tried--a regulatory 
approach 4 or 5 years ago, and my recollection is that it 
focused just on mercury. But ultimately the courts did not 
allow that to go forward, and they basically said, no, that is 
not the way to get it done, either.
    Now we have this approach. And there is an old saying, and 
I am sure you have heard this many times, if at first you do 
not succeed, try, try again. Well, we have been trying. We have 
been trying for a long time. And the Clean Air Act says, since 
the last 22 years, we need to get this done. And at some point 
in time, we need to get this done.
    It has been a good hearing. I appreciate very much the 
participation of our witnesses and the questions and the spirit 
in which this has taken place. I understand--what is it, 2 
weeks? Two weeks to submit questions and materials for the 
record. We just ask that our witnesses respond promptly to the 
extent that you can to any of those questions, and they will 
become, your answers will become part of the hearing record, as 
you may know.
    Again, we are just grateful to all of you for coming today 
and for participating. Nice to see you all. Thanks so much.
    We are adjourned.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
